HHS/OIG, Audit -"Review of the Outpatient Cardiac Rehabilitation Services - HealthSouth Sea Pines Rehabilitation Hospital,"(A-04-03-01004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Outpatient Cardiac Rehabilitation Services - HealthSouth Sea Pines Rehabilitation Hospital," (A-04-03-01004)
December 10, 2003
Complete
Text of Report is available in PDF format (565 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Health South Sea Pines Rehabilitation
Hospital (Hospital) for outpatient cardiac rehabilitation services.  We could not identify the physician professional
services to which the cardiac rehabilitation services were provided incident to.  Also, from our claims review for
30 sampled beneficiaries who received outpatient cardiac rehabilitation services during calendar year 2001, we determined
that the Hospital received Medicare payments of $26,279 for services provided to beneficiaries not allowable, and payments
of $902 where medical documentation may not have supported Medicare covered diagnoses.  We recommended that the Hospital:  (1)
work with its fiscal intermediary to ensure that its outpatient cardiac rehabilitation program is being conducted in accordance
with the Medicare coverage requirements for direct physician supervision and for services provided incident to a physicians
professional service; (2) work with its fiscal intermediary to establish the amount of repayment liability for services
where medical documentation may not have supported Medicare covered diagnoses; (3) refund the $26,279 overpayment; (4)
conduct an internal review of all cardiac rehabilitation claims from August 1, 2000 to the present and report the overpayments
to the fiscal intermediary and the Office of Inspector General; and, (5) implement controls to ensure only 1 unit of service
per beneficiary is billed for each cardiac rehabilitation session.